No. 19-7
[N THE SUPREME COURT OF THE UNITED STATES
SEILA LAW LLC, PETITIONER
V.

CONSUMER FINANCIAL PROTECTION BUREAU
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
BRIEF
FOR RESPONDENT SUPPORTING VACATUR, via first-class mail, postage
the
prepaid, this 9TH day of December 2019.
[See Attached Service Listi
As required by Supreme Court Rule 33.1(h), I certify that the document contain 12965 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
December 9, 2019.

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington. D.C. 20530-0001
(202) 514-2217
December 9, 2019.
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefsUSDOJ.gov. Ms. Goodwin's phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0007
SEILA LAW LLC
CONSUMER FINANCIAL PROTECTION BUREAU

CORBIN K. BARTHOLD
WASHINGTON LEGAL FOUNDATION
2009 MASSACHUSETTS AVENUE, NW
WASHINGTON, DC 20036
CBARTHOLD@WLF,ORG
THOMAS H. BIENERT, JR.
BIENERT KATZMAN PC
903 CALLE AMANECER
SUITE 350
SAN CLEMENTE , CA 92673
PAUL D. CLEMENT
KIRKLAND & ELLIS LLP
1301 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20004
202-389-5000
PAUL. CLEMENT @KIRKLAND. COM
OLIVER J. DUNFORD
PACIFIC LEGAL FOUNDATION
4440 PGA BOULEVARD
SUITE 307
PALM BEACH GARDENS, FL 33410
BAS@PACIFICLEGAL.ORG
KYLE D. HAWKINS
SOLICITOR GENERAL
P.O. BOX 12548 (MC 059)
AUSTIN, TX 78711-2548
512-936-1700
KYLE.HAWKINS@OAG.TEXAS.GOV

KIMBERLY S. HERMANN
SOUTHEASTERN LEGAL FOUNDATION
560 W. CROSSVILLE ROAD
SUITE 104
ROS WELL, GA 30075-7509
770-977-2131
KHERMANN@SOUTHEASTERNLEGAL.ORG
RICHARD P. HUTCHISON
LANDMARK LEGAL FOUNDATION
THE RONALD REGAN LEGAL CENTER
3100 BROADWAY
SUITE 1210
KANSAS CITY, MO 64111
816-931-5559
PETE.HIIJTCH@LANDMARKLEGAL.ORG
NEAL K. KATYAL
HOGAN LOVELLS US LLP
555 THIRTEENTH STREET, N.W.
WASHiNGTON, DC 20004
202-637-5600
NEAL.KATYAL@HOGANLOVELLS.COM
SCOTT A. KELLER
BAKER BOTTS LLP
1299 PENNSYLVANIA AVENUE, NW
WASHINGTON, DC 20004
202-639-7700
SCOTT.KELLER@BAKERBOTTS.COM
DOUGLAS N. LETTER
U.S. HOUSE OF REPRESENTATIVES
219 CANNON HOUSE OFFICE BUILDING
WASHINGTON, DC 205 15-6532
202-225-9700
DOUGLAS.LETTER@MAIL.HOUSE.GOV

NOAH R. MINK
BAKER, BOTTS LLP
THE WARNER
1299 PENNSYLVANIA AVENUE, NW
WASHINGTON, DC 20004-2400
202-639-7825
NOAH.MINK@BAKERBOTTS.COM
ALAN B. MORRISON
GEORGE WASHINGTON UNIVERSITY LAW
SCHOOL
2000 H STREET, NW
WASHINGTON, DC 20052
202-994-7120
ABMORRISON@LAW.GWU.EDU
ANDREW J. PINCUS
MAYER, BROWN LLP
1999 K STREET, NW
WASHINGTON, DC 20006-1101
202-263-3220
APINCUS@MAYERBROWN.COM
KANNON K. SHANMUGAM
PAUL, WEISS, RIFKIND, WHARTON &
GARRISON LLP
2001 K STREET, N.W.
WASHINGTON, DC 20006
202-223-7325
KSHANMUGAM@PAUL WETS S .COM
ILAN WURMAN
SANDRA DAY O'CONNOR COLLEGE OF LAW
ARIZONA STATE UNIVERSITY
111 E. TAYLOR STREET
PHOENIX, AZ 85004-4467
480-965-2245
TLAN.WURMAN@ASU.EDU

